<html>
<title> - THE ROLE OF WATER IN AVOIDING CONFLICT AND BUILDING PROSPERITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
     THE ROLE OF WATER IN AVOIDING CONFLICT AND BUILDING PROSPERITY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                AND THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2015

                               __________

                           Serial No. 114-97

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
 96-049PDF                        WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                            
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan

                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,Tennessee           AMI BERA, California
DANIEL DONOVAN, New York 
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. John Oldfield, chief executive officer, WASH Advocates.......     5
Mr. Denis Bilodeau, 1st vice president, Orange County Water 
  District Board of Directors....................................    26
Dale Whittington, Ph.D., professor, University of North Carolina.    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. John Oldfield: Prepared statement............................     8
Mr. Denis Bilodeau: Prepared statement...........................    28
Dale Whittington, Ph.D.: Prepared statement......................    36

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


     THE ROLE OF WATER IN AVOIDING CONFLICT AND BUILDING PROSPERITY

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2015

                       House of Representatives,

       Subcommittee on Europe, Eurasia, and Emerging Threats and

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the Subcommittee on Europe, Eurasia, and Emerging 
Threats) presiding.
    Mr. Rohrabacher. I call to order this joint hearing of the 
European, Eurasian, Emerging Threat Subcommittee and the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations for this afternoon's hearing on 
issues dealing with clean water, sanitation, and the world.
    And I want to thank my fellow members here before I give an 
opening statement on my part. Thank you both for the 
contributions you have made to this hearing, but also to this 
issue over the years. You have both demonstrated such a high 
level of morality and concern for fellow human beings that 
will, in and of themselves, those concepts and as part of your 
soul, will serve our country well in the long run in terms we 
do what is right. We do what is good for the world in these 
ways, and make it a better world, it is clearly going to have 
very positive feedback and blowback on the United States, 
rather than negative blowback when all we rely on is weapons 
and trying to get things done by sending troops in the last 
minute to calm a situation down. So I want to thank you both 
for your moral and long-term thinking.
    Throughout recent hearings, the Europe and Eurasian 
Subcommittee has explored international water cooperation and 
discussed examples where water disputes between nations has led 
to increased tensions. And today we will be discussing water 
from the point of view of human security.
    Access to clean water is absolutely essential to each and 
every human being. That is why estimates that potentially 
billions of people in the coming decades will be living in 
water-stressed areas of the world. So this is a very troubling 
observation and prediction. Without access to water and the 
implications that it holds for personal hygiene, agriculture, 
industry, far too many people will be forced to accept lower 
standards of living. As Members of Congress concerned with 
foreign policy, we must think how this dynamic may spark 
conflicts over natural resources or destabilize very fragile 
governments.
    But this is not only a question for the future. It is a 
problem of today. This year, we know hundreds of thousands of 
children will needlessly die from diseases caused by a lack of 
clean water, plus many more than those hundreds of thousands, 
many more will die from some disease that can be traced right 
back to a lack of clean water.
    The toll in human suffering caused by a lack of water and 
dirty water is great, and I am sure witnesses here can explain 
those stories and how great a problem and challenge that it is.
    Yet, I believe the challenges of access to clean water, 
hygiene, and sanitization can be conquered, and we now have it 
within our grip, technologically and with the amount of wealth 
available in our societies, to actually overcome this enormous 
challenge. Our government through USAID has spent over $3.5 
billion over the last decade on programs to do just that; not 
to mention the efforts of our international partners and 
nongovernmental organizations.
    I believe that as we continue to advance technologically 
and continue to have innovative ideas that we put into 
practice, that water scarcity can be managed and mitigated. 
Increasing human security when it comes to water access and 
hygiene will not only help improve the lives of these millions 
of vulnerable people, if not billions of people, but also serve 
as the strategic interest of the United States. If increasing 
access to clean water at the micro level helps people in 
communities to be secure, it follows that their governments 
will be better able to find solutions to international water 
disputes.
    So without objection, all members will have 5 legislative 
days to submit additional questions and extraneous material.
    But before that, I would like to start off with Mr. 
Blumenauer or Mr. Smith. Mr. Blumenauer has sort of been our 
partner on this and several other significant matters.
    Mr. Blumenauer, would you enlighten us with an opening 
statement?
    Mr. Blumenauer. Mr. Chairman, thank you. Thank you for the 
courtesy of permitting me to join you and Chairman Smith in 
this hearing, laying an important foundation. This has been an 
area of deep personal concern of mine. I have been pleased that 
in recent Congresses we have been able to get a couple of 
significant pieces of legislation to focus American foreign 
policy on water and sanitation. And I would say that there have 
been no two stronger champions in this bipartisan effort than 
the two of you. And so I am deeply appreciative of your 
leadership and your partnership, and it is truly an honor for 
me to join you.
    You laid it out, Mr. Chairman. We have got some certified 
smart people here who can round out this picture who have been 
active in recent years. I have had a chance to meet some, and 
have a new acquaintance here. But the intersection of water, 
national security, and massive dilemmas in terms of human 
wellbeing, are significant. There are 261 waterways that cross 
international boundaries. In some cases, like the Danube, it is 
19 countries in the heart of Europe.
    An unsettling number of some of the largest rivers in the 
world no longer flow to the oceans in the course of a year. 
They are dry for some or all of that period. More than 40 
percent of the world's population already lives in an area of 
physical water scarcity.
    And competition is fierce. It is estimated that 20 percent 
more irrigation water is going to be needed in the next 10 
years to keep agriculture going. The Pacific Institute in 
California has drawn up a list of conflicts in which water has 
played a part, and they have identified over 200, 204 such 
incidents where water figured into international conflict. And 
61 of those incidents were recent. Looks like the problem is 
getting more serious, not less.
    We have seen it in the Horn of Africa. Part of the chaos in 
Syria was the result of persistent drought that drove people 
out of the countryside and into cities where ill-prepared. The 
situation we are going to be facing in Yemen.
    And I would say one area that I look forward to consulting 
with both of you is to see if we might be able to help focus 
the United States' efforts in Gaza. No matter what one thinks 
about the conflict there, we have almost 2 million people who 
are in an area that the water supply is not going to be, any of 
it, is going to be fit for human consumption within 2 years. 
And within less than 5 years, we think that that condition will 
become permanent. Maybe this is a little area that we could 
come together to try and deal in a humanitarian sense.
    But let me just stop at this point. The National 
Intelligence Estimate points out that this is a serious issue 
of national security. You have got some of the best people 
here. I appreciate your leadership and focus and look forward 
to being your partner; maybe not on the committee, but maybe as 
an honorary member of your team. Thank you so very much.
    Mr. Rohrabacher. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. And it is 
indeed an honor to join you, Chairman Rohrabacher, and I thank 
you for your leadership on this extremely important issue.
    And, Mr. Blumenauer, it is a delight to be with you again, 
and thank you for your legislation, which did become law, which 
I think is a landmark piece of legislation. It was very 
bipartisan, but you walked point, and I thank you for that 
extraordinary leadership as well.
    Like you, Mr. Chairman, my subcommittee has had and held 
several hearings on health and water, and it is clear that 
without adequate supplies of clean drinking water and proper 
sanitation no health programming can succeed. Indeed, the World 
Health Organization estimates that because of a lack of access 
to safe drinking water and sanitation, more than 14,000 people 
die daily from water-borne illnesses which cause more than 1 
billion cases of intestinal worms, 1.4 million child deaths 
each year from diarrhea, 860,000 child deaths each year from 
malnutrition, and 500,000 deaths from all age groups each year 
from malaria.
    I note parenthetically that I have introduced legislation 
that we are really pushing hard to enact about neglected 
tropical diseases, and it would really take that whole issue to 
a new realm of prioritization and backing. But, again, without 
water, and without trying to address water needs, all of those 
efforts are stymied. And of course, that is integrated into our 
bill.
    It is troubling that so many people in the world do not 
have ready access to water. The U.N. has estimated 2.6 billion 
people have gained access to safe drinking water over the last 
25 years, but another 663 million continue to lack access as of 
this year. Nearly half of these people live in Africa, another 
fifth live in South Asia.
    As we know, the U.N. Millennium Development Goals, the 
MDGs, included a target for access to safe drinking water and 
basic sanitation. According to the U.N., global goals for 
access for water are being met, but sanitation continues to be 
unmet. Of course, that is defined as having globally the 
proportion of people who are without sustainable access to safe 
drinking water and basic sanitation. So it is a movement in the 
right direction, but certainly not an achievement of universal 
access.
    Over the past 10 years, the U.S. Government has spent $3.5 
billion on water, sanitation, and hygiene, or WASH programming. 
Nevertheless, even after several water acts passed by Congress 
and great international effort to bring countries up to global 
WASH standards, U.S. programming still remains somewhat 
disjointed. According to the GAO study just being concluded, 
there is no uniform model that has been created for WASH 
programming. USAID was supposed to present a comprehensive plan 
for WASH programming this year, but none has been released as 
of this time.
    Even if a model program were to be made adaptable to each 
country, by now there should be some overall strategy for how 
to design a program, monitor its progress, and evaluate its 
outcomes. In too many countries in which USAID operates WASH 
programs, there is no comprehensive program. Monitoring is 
limited and evaluation fails to adequately assess the 
statistics being provided by host governments.
    The human cost of failure to provide adequate WASH 
programming is too high to allow substandard programming to 
continue. We will hear that there has been progress made, and 
this is indeed promising, but there is more that must be done. 
And, again, we have the experts here today to provide a road 
map to our committees as to how we should proceed.
    I thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much.
    Now we have three witnesses. I will be introducing the 
three of them. We will have testimony, and then we will have 
questions and answers for all three witnesses at the same time.
    Let me suggest to the witnesses, if you can summarize in 5 
minutes, that would be great and give us more time to have a 
bit of a dialogue on this.
    We have three wonderful witnesses, as I say. John Oldfield 
is the CEO of WASH Advocates. And I am trying to guess, you 
have Water and Sanitation Health?
    Mr. Oldfield. Hygiene.
    Mr. Rohrabacher. Hygiene.
    Mr. Oldfield. Hygiene. Health is a good guess, though.
    Mr. Rohrabacher. Okay, there we go--WASH advocates, an 
organization dedicated to increasing the awareness of global 
WASH challenges and solutions. Previously, he founded two 
implementing nonprofit organizations and was with the National 
Academy of Sciences, where he researched science and technology 
policy.
    And next we have from my home county Denis Bilodeau, who is 
the vice president of the Orange County Water District, and was 
elected to his fourth term in 2012. He is a licensed civil and 
traffic engineer, holds a bachelor degree in civil engineering 
from the University of California at Irvine.
    And let me just note that we in Orange County are proud 
that we have what we believe is the most technologically 
sophisticated and up-to-date water system in the world. And we 
will let him describe that and the implications of that for 
these various countries that are facing a serious challenge.
    Dale Wittington is a professor at the University of North 
Carolina at Chapel Hill in the Department of Environmental 
Science and Engineering, and City and Regional Planning. He is 
a member of the Technological Committee on the Global Water 
Partnership and has served as consultant on water and 
sanitation policies to the World Bank, USAID, and numerous 
other organizations.
    So we have some very, like I say, witnesses that are very 
impressive with their credentials.
    And may we proceed, Mr. Oldfield?

 STATEMENT OF MR. JOHN OLDFIELD, CHIEF EXECUTIVE OFFICER, WASH 
                           ADVOCATES

    Mr. Oldfield. Thank you, Mr. Chairman. I was pretty proud 
of my opening remarks here until I heard yours. It is going to 
be hard to beat that. I am gratified that some of the certified 
smart people are up there as well. So thank you for yours.
    Thank you, Chairman Rohrabacher, Chairman Smith, Ranking 
Member Meeks, Ranking Member Bass, and distinguished members, 
Mr. Blumenauer, for the opportunity to provide these brief 
remarks, which are a summary of my written statement.
    Thank you, before I begin, for your interest and your 
support for safe drinking water, sanitation, and hygiene 
programs throughout Africa, Asia, and Latin America over the 
last at least decade.
    I also, before I continue, want to recognize and in fact 
applaud the U.S. civic organizations, religious groups, student 
clubs, corporations, academics, private philanthropists, 
nonprofits, and then my fellow panelists, my fellow witnesses, 
who are all working to solve this challenge with us today.
    Safe drinking water, sanitation, and hygiene are about, its 
most simple terms, about the dignity and personal and economic 
security of human beings. A life without WASH is a very 
difficult one. You may remember a situation 2 years ago where 
two young women were raped and murdered in Uttar Predesh, 
India, raped and murdered on the way to go to the bathroom in a 
field at night. That story actually, I think, helped galvanize 
Congress to support the Water for the World Act that was 
referenced and to strengthen appropriations language, so thank 
you again for that.
    And as I was preparing this testimony, I also learned of an 
extraordinarily sad situation from my friends at Special 
Olympics in Nigeria. A 15-year-old girl with an intellectual 
disability was raped on her way to fetch water from a local 
river for her school, a state school for students with 
intellectual disabilities in southern Nigeria. Now, that girl, 
a Special Olympics athlete, faces challenges in life that most 
of us can hardly imagine, and a lack of safe drinking water 
should not be one of them.
    In both of these situations there were larger societal 
challenges involved, but if these women had safe drinking water 
and a private, safe place to go to the bathroom their lives 
would undoubtedly be or have been more secure and more 
productive.
    Now, beyond these painful stories, there are hundreds of 
millions of women who spend far too much of their time and far 
too much of their income acquiring, as you have stated, just 
enough water to keep themselves and their families alive, if 
not actually healthy, on a daily basis. In 2015, hundreds of 
millions of women and girls are wasting their lives carrying 
water. Imagine what would each of us do if we had an extra 3 or 
4 hours a day, how much more secure would we feel, how much 
more economically productive would we be?
    This is solvable. I think all three of you have said that. 
And Congress has been a key ally for well over a decade here. 
The Water for the Poor Act of 2005, of course, made safe 
drinking water, sanitation, and hygiene a priority of U.S. 
foreign policy. The Water for the World Act of 2014 further 
directs USAID to make WASH investments with the biggest 
contributions to global public health, alongside improved 
monitoring and evaluation, enhanced accountability, and 
decentralized ownership.
    This year, House appropriators reasserted congressional 
intent to prioritize WASH and its fundamental contributions to 
health and to the security of the world's poorest people. The 
appropriators wrote: ``Access to adequate water, sanitation, 
and hygiene is a critical component of disease prevention, and 
a lack of access to toilets and adequate sanitation impacts 
women and girls in particular.''
    The global WASH challenge is both an emerging threat and an 
emerging opportunity. For 10 years, Congress and both the Bush 
and the Obama administrations have provided bipartisan support, 
moving WASH efforts to what I considered to be the leading edge 
of foreign assistance reform by focusing on strengthening local 
capacity and increasing accountability across Africa, Asia, and 
Latin America.
    However, Congress can further improve human and economic 
security across the developing world and should, A, continue to 
provide strong oversight of these issues; B, increase the 
amount, the effectiveness, and the targeting of annual 
appropriations; C, seek additional leverage for U.S. taxpayer 
dollars through additional partnerships and innovative finance; 
D, make WASH a more prominent piece of our bilateral 
relationships with many countries; and E, prioritize water and 
sanitation first of all as an important sector in its own 
right, but secondly, as the foundation of long-lasting progress 
toward public health, conflict prevention, undernutrition, and 
economic development.
    Now, years ago an early supporter of the Water for the Poor 
Act that became law in 2005 said: ``It is the human condition 
that must be improved if national security is to be 
strengthened.'' You might recall that quote. Sitting here 
today, I see no better way to improve the human condition than 
by providing safe drinking water, sanitization, and hygiene to 
more families and communities across the globe. And I and many, 
many others are grateful for your continuing support. Thank 
you.
    [The prepared statement of Mr. Oldfield follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
                 ----------                              

    Mr. Rohrabacher. Mr. Bilodeau.

  STATEMENT OF MR. DENIS BILODEAU, 1ST VICE PRESIDENT, ORANGE 
            COUNTY WATER DISTRICT BOARD OF DIRECTORS

    Mr. Bilodeau. Thank you, Chairmen Rohrabacher and Smith and 
members of the subcommittee. I am Denis Bilodeau and I appear 
before you today as an elected member of the Board of Directors 
of the Orange County Water District. I am honored to appear 
before you to discuss global water scarcity. I will summarize 
my statement and request that it be submitted into the formal 
hearing record.
    As background, the OCWD is located in the 48th 
Congressional District in Southern California. We provide 
groundwater to 19 cities and water agencies with a population 
of 2.4 million. OCWD has led the way in developing innovative 
water solutions across a range of technology and 
infrastructure.
    In the late 1980s, we recognized that to preserve our 
region's economic vitality we needed to address groundwater 
depletion, seawater intrusion, and unreliable surface water 
supplies. We implemented an aggressive program to develop a 
water treatment process with our sister agency, which is the 
Orange County Sanitization District. This is called the 
Groundwater Replenishment System. This system takes treated 
wastewater from the Orange County Sanitation District--and when 
I say treated wastewater, I speak of sewage--that would 
otherwise be discharged into the Pacific Ocean. It implements a 
three-step advanced treatment process that consists of 
microfiltration, reverse osmosis, and ultraviolet light with 
hydrogen peroxide. This treatment and purification process 
produces high-quality water that exceeds all State and Federal 
drinking water standards and delivers enough water to serve 
850,000 people with the production of 100 million gallons a day 
currently.
    When we think about global water supply needs and the ways 
in which to reduce tensions that arise from constrained potable 
water supplies and the ability to share experiences, 
collaboration is important. OCWD shares its knowledge in 
advanced water purification technology.
    For example, Singapore enhanced its water security using 
our experience and expertise. The country of Singapore has been 
principally reliant on water from Malaysia. With political 
differences between the nations, and the expiration of long-
term agreements for water transfers between Malaysia and 
Singapore, the Public Utility Board of Singapore was tasked 
with finding ways to make Singapore more water self-sufficient. 
The Singapore PUB reached out to us to learn about technology 
that our district was using to purify wastewater and put it 
back into the groundwater supplies. Water leaders from 
Singapore visited us to see what we were doing to recycle and 
purify wastewater and to see how we were communicating with the 
public to bolster public support for potable reuse.
    Working with us, Singapore developed both purified water, 
which they call NEWater, and seawater desalinization to 
diversify their portfolio of available water for sources for 
the drinking water system, as well as to protect against 
depletion of their reserves during drought or interruption of 
imported supplies. Singapore also built a secondary system to 
enable it to serve high purity water to its high-tech 
customers, such as wafer fabricators and circuit board 
manufacturers that require highly purified water.
    This system of water distribution helped to make Singapore 
a desirable place for valuable industrial customers and to help 
locate manufacturing facilities.
    In 2014, the Orange County Water District was presented 
with the Lee Kuan Yew Water Prize for our efforts toward 
solving the world's water problems by applying innovative 
technology solutions.
    We are proud to serve as a global water leader in the water 
industry, and at the same time it is just a start. Greater 
investments must be made to implement similar projects around 
the world. We must continue to create opportunities for water 
experts to engage with one another and to exchange information 
to keep pushing the envelope and develop new and innovative 
solutions to global water problems.
    The Singapore-Orange County Water District collaboration is 
an example of how American technology transfer can lead to 
solutions for global water supply and quality needs for regions 
around the world. Again, the Orange County Water District 
greatly appreciates the subcommittee's decision to explore this 
important national and international water security matter. 
Thank you very much for having me.
    [The prepared statement of Mr. Bilodeau follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                ----------                              

    Mr. Rohrabacher. Mr. Whittington.

STATEMENT OF DALE WHITTINGTON, PH.D., PROFESSOR, UNIVERSITY OF 
                         NORTH CAROLINA

    Mr. Whittington. Mr. Chairman, just by chance, I just got 
back from 7 weeks in Singapore and had the privilege of seeing 
these facilities that Denis has just described. So everything 
he is saying is true here. I just was at the Lee Kuan Yew 
School.
    Thank you very much for the invitation to speak today on 
the role of improved water and sanitation services and avoiding 
conflict and building economic prosperity. I would like to make 
three points in my testimony.
    First, there is good news from the public health field. 
Thanks in part to the efforts of the United States and the 
international community, childhood mortality rates are 
declining in developing countries and the rate of decline is 
accelerating. And as we look ahead over the next few decades, 
economic growth should enable East Asia, Southeast Asia, Latin 
America to solve their water supply and sanitation problems and 
thankfully water-related mortality will be a thing of the past 
in these regions. The remaining challenges are going be to be 
in South Asia and Sub-Saharan Africa, but even here childhood 
diarrhea and mortality rates are falling rapidly.
    However, the economic benefits from investments in water 
and sanitation infrastructure consist of both health and 
nonhealth outcomes, and Denis has just described some of the 
nonhealth outcomes in Singapore. There is a shift occurring in 
the relative magnitude of these two components with the health 
benefits declining and the nonhealth benefits, such as time 
savings, increasing.
    The nonhealth related benefits of improved water services 
vary depending on location, but they can be surprisingly large 
and are often increasing. For example, in a recent study 
conducted in Kathmandu, Nepal, researchers at the Institute of 
Water Policy at the National University of Singapore found that 
from 2001 to 2014 the real cost after adjusting for inflation 
that households were incurring coping with water shortages and 
intermittent contaminated supplies actually doubled from $7 a 
month to $14 a month on average. These coping costs include the 
value of time spent collecting water from outside the home, 
investments in water storage, in-house water treatment, and 
expenditures to water vendors, all of which most Americans 
never experience.
    Investments in improved water services that reduce or 
eliminate these coping costs free up a household's time, just 
as John just mentioned, and money for other priorities and 
increase economic growth. It is really hard for an urban 
economy to function efficiently if everyone is worried about 
getting home from work to meet a tanker truck in order to have 
sufficient water for a week.
    I think that this shift from health to nonhealth benefits 
has important implications for donor assistance in the WASH 
sector. In places where coping costs are high, one can be 
confident that the economic benefits of improved water supplies 
will also be very high. But the coping costs are not high 
everywhere, and careful economic analysis of water and 
sanitation infrastructure projects is needed to ensure that 
assistance is targeted to communities where it will have the 
greatest economic impact. This will also go a large way to 
reducing conflict. The best way to avoid conflict is for a 
country to get on a high-growth development path.
    My second point is that the world's population is becoming 
increasingly urbanized and the largest economic benefits of 
improved water and sanitation infrastructure usually will be in 
cities in developing countries. So if the objective is to 
promote economic growth, then it is important to prioritize 
investments in urban areas.
    Large economic benefits can be obtained not only from 
infrastructure investment, but also from policy reforms. 
Utilities in cities in low- and middle-income countries almost 
always provide water and sanitation services to customers far 
below cost. They rely on subsidies from higher-level 
governments and donors to pay these subsidies. And recent 
research has shown that these subsidies are very poorly 
targeted. The majority don't reach poor households.
    For my third point I want to shift from the economic 
benefits of water and sanitation investments to the 
relationship between water and conflict on international 
rivers. I know this subcommittee has heard from Paul Sullivan 
and his testimony on the implications of the Grand Renaissance 
Dam in Ethiopia. However, I have been studying and writing 
about the Nile for almost 40 years, and I would be happy to 
answer any further questions you have about the situation that 
is emerging on the Nile. I would like to just say a few last 
things and comments on that situation.
    The construction of the Grand Ethiopian Renaissance Dam 
started in 2011 on the Blue Nile near the Ethiopian-Sudanese 
border. It is now about 40 percent complete. When it is 
finished the Nile riparians and the global community will face 
a new situation in transboundary hydropolitics. There will be 
two very large dams, the Aswan High Dam and the GERD, with 
over-year storage capacity on the same river in different 
countries in a water-scarce basin, and there is presently no 
plan for coordinating the operation of those large storage 
facilities.
    In my judgment, the Nile riparians need assistance from the 
international community immediately in reaching a fair, 
equitable agreement on the joint operation of the Aswan High 
Dam and the GERD based on best global practices. This is a 
matter of urgency. Ethiopia will likely begin filling the GERD 
in 2016, just next year.
    So in summary, I have four recommendations. First, in order 
to promote economic growth, assistance in the water supply and 
sanitation sector should be focused on South Asia and Sub-
Saharan African cities.
    Second, if USAID wants water and sanitation investments 
with high economic returns, it should assist countries to do 
the economic analysis to identify where economic returns will 
be greatest. President Reagan's Executive Order 12291 required 
that all major regulations in the United States pass a cost-
benefit test. Why not have USAID assistance to the water sector 
pass a similar test?
    Third, the United States Agency for International 
Development's global water coordinator and the Department of 
State's special advisor for water resources should give high 
priority to the reform of municipal water pricing and tariffs 
in developing countries and to improve the targeting of 
available subsidies to poor households.
    And finally, fourth, the United States Department of State 
should encourage international organizations such as the World 
Bank to reengage in the Nile mission. As I said, this is a 
matter of urgency for the international community.
    Thank you very much.
    [The prepared statement of Mr. Whittington follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                  ----------                              

    Mr. Rohrabacher. Thank you very much.
    We have been joined by Dan Donovan.
    Do you have any opening statement that you would like to 
make before we go into some questions?
    Mr. Donovan. No, Mr. Chairman. Thank you very much.
    Mr. Rohrabacher. All right, thank you.
    Just I will proceed with my time period here. First of all, 
about Orange County, I bring people in from all over the world. 
I must have in the last 10 years brought in 20 or 30 different 
groups of people from foreign countries to see the operation 
that is going down there. And it is based on, yes, two 
elements. One is a new technology with this membrane technology 
being developed to the utmost, but also it deals with the 
cooperation of various levels of government. And as you say, 
the sanitation department and the water district, I don't know 
if sanitation and water districts get along in other places, 
but from what I understand, sometimes it is hard for one 
department of government to talk to the other department of 
government, whether it is Federal, State, or local.
    But just as they are doing that, we need to make sure that 
at the Federal level we are cooperating between the various 
departments and agencies that can have an impact on this issue.
    And I have already drawn attention to the fact that when 
you have so many people who are facing a future of billions 
people without--or a billion people--without clean water, that 
is a volatile situation where people are seeing their families 
die, and thus undermine the security and the tranquillity of 
whatever area that is going on in. For all we know, and I 
haven't looked at it yet, but I would hope to find out about 
it, that some of these refugees that are pouring into Europe 
right now and creating an enormous chaos that Europe just has 
not been used to, I would say that there probably is a water 
connection there, and several witnesses have alluded to that.
    So when our European friends talk about what can be done to 
help prevent that, number one, let's make sure people aren't 
watching their children die of some disease that wouldn't be 
there if they had clean water, and thus they don't feel 
compelled about taking their entire family and going to Europe 
where they think they can get clean water.
    Let me ask this. Has there been an assessment? We were 
talking about trying to have some kind of real assessment as to 
how effective a program is. Is this lacking? Maybe you could go 
into a little more detail on that.
    Mr. Whittington. It is hard to do economic analysis of 
water projects because it is difficult to measure all of these 
benefits. At the same time, I think we have to try. I mean, the 
World Bank does it. The Inter-American Development Bank does 
it. And I think USAID can do it too.
    Warren Buffett doesn't get high returns on capital just by 
chance. I mean, he does the economic analysis to figure that 
out. And I think it is the same in the water sector. I mean, 
there are lots of good investments everywhere, but we should be 
focusing our taxpayer dollars on those investments with the 
highest economic returns, and you have to do the economic 
analysis to figure that out.
    Mr. Rohrabacher. And one question for the panel just very 
quickly. We had the example of Singapore, where you have this 
huge number of people with a very limited amount of water, and 
now it is clean water and they are prospering. Is this an urban 
challenge or are we talking about more of a development 
challenge in terms of clean water? Just go down the row there.
    Mr. Oldfield. Sure. Thank you, Mr. Chairman. It is a fair 
question. We have read the demographic data, 51 percent of the 
world now lives in cities and urban and peri-urban or informal 
settlement environments. So I would certainly second Dr. 
Whittington's suggestion to focus on cities to a certain 
extent.
    But the data also shows that 70 to 75 percent of the 
remaining problem, 70 to 75 percent of the 663 million people 
without access to safe drinking water, the 2.4 billion people 
without a private, safe place to go to the bathroom, are in 
rural communities.
    Mr. Rohrabacher. Could you please repeat that statistic 
that you just gave us?
    Mr. Oldfield. Seventy to seventy-five percent of the 
remaining need for safe drinking water and sanitation across 
the developing world is in rural communities, across Africa, 
across Asia, and across Latin America.
    Now, that is changing. People are migrating to cities and 
informal settlements around cities and so on. So the need is 
pervasive everywhere.
    I think what ties this all together is what I think the 
three of you said in your opening statements: We know how to 
solve this. And regardless if it is urban, peri-urban, or rural 
villages, in Africa, Asia, or Latin America, we know how to 
solve these problems, they now how to solve these problems, and 
they need to be solved in a fashion that is both appropriate in 
technical terms, in financial terms, and in sociocultural 
terms, and these problems need to be solved in a fashion that 
is resilient, that is going to build systems that are able to 
withstand population shifts, droughts, floods, and so on.
    So the systems, whether it is urban, peri-urban, or rural, 
need to be both appropriate in a number of terms, a number of 
facets of appropriate and resilient.
    Mr. Bilodeau. In terms of the Orange County experience, the 
technology we are using is primarily applicable to urbanized 
areas because you need to have a central collection point for 
the wastewater. Then you can then harvest and reuse that water 
and deliver it back out to your customers. So it wouldn't be so 
applicable in sparsely populated areas, but definitely for 
urbanized areas. And our type of system would go hand in hand 
in terms of development of a sewage collection system, as well 
as a recycling system along with that.
    Mr. Rohrabacher. So what you have got is sanitation and 
clean water, again----
    Mr. Bilodeau. Combined.
    Mr. Rohrabacher [continuing]. The importance of putting 
those two together.
    Mr. Bilodeau. Yes, developing those in conjunction.
    Mr. Whittington. So I agree with John that there are huge 
problems in rural areas, but I think that there is a tension 
between humanitarian aid and pro-growth economic aid. I am not 
arguing to do less in rural areas. I just want to focus also on 
urban areas because that is where the economic benefits and the 
real chance to move economies to a high growth dynamic 
trajectory is.
    And so as people move from rural areas into cities, there 
is a package of infrastructure investments that are critical to 
getting economic growth moving, and they include 
telecommunications and roads and health and education.
    And water is a critical component. Piped water services in 
urban areas are what people want. People in developing 
countries are just like you. They want 24/7 water that is 
potable, that they can drink. And this is feasible. And it is 
not only feasible from a humanitarian point of view, it is the 
right thing to do from an economic development perspective.
    Mr. Rohrabacher. And of course the cleaner water in the 
urban area, the less money has to be spent for taking care of 
people's health problem, and investment in the water would 
negate some of that cost.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you, all three, for your very, very expert and 
informative presentations.
    Let me just ask, Dr. Whittington, you have made four 
recommendations. Thank you for those. I think they are right on 
the money and in terms of things we should be doing.
    When you talk about the GERD and the Aswan High Dam and the 
status of the negotiations, my question is, what might a 
prudent agreement look like? I mean, the time seems to be, you 
know, coming and quickly passing. I mean, as you pointed out, 
filling of the dam might begin as early as 2016.
    You talk about the U.S. Department of State should increase 
its diplomatic efforts. What is it doing? How engaged are we? 
How would you rate it? Is it enough? Is it something we should 
invite State and USAID to be here to give us some insights and 
then we could prod them along to try to make this much more 
serious?
    The GAO study has said USAID WASH interventions don't cover 
large water issues such as dams, as you know. So if you could 
just give some information or some guidance along those lines.
    With regards to sanitation, perhaps one of you, Mr. 
Oldfield, perhaps you, might want to provide insights and 
recommendations as to why the international community has 
failed to meet the MDG targets for sanitation. And even meeting 
those targets for the accessibility to clean and safe water, 
yeah, we are talking about having the number of those who don't 
have access, and that still leaves us, as you know, with over 
663 million people who have lacked access to safe water. So it 
is a step in the right direction, but it is certainly not the 
achievement of the hope is, which would be universal access. 
But why is sanitation a laggard?
    And let me also ask, in Africa, if it accelerates, as it 
is, its march to electrification, the Power Africa and other 
initiatives, how should these emerging economies integrate best 
practices? And perhaps our friend from Orange County might 
speak to that.
    As you mentioned Mr. Chairman, you have invited delegations 
from other countries to go and witness what they are doing to 
share that best practice.
    But, I mean, is our government integrating the experts in 
the field like yourself so that, you know, Nigeria, Ethiopia, 
name the country, you know, can say: Why reinvent the wheel? 
This has been perfected to the point, and now that we have 
access to electricity that we hadn't had before, that state-of-
the-art sanitation can be deployed in a way that provides for 
safety and efficacy of the whole operation.
    So if you could speak to that because it seems to me we 
have written the book on this. We have done this on a whole lot 
of other issues. We have learned from others, but we also as a 
country, and I think Europe can say the same thing, has much to 
share. But if we are not actively integrating that sharing 
process--you are--but, you know, can it be accelerated, should 
it be accelerated, and if you could speak to that.
    Mr. Bilodeau. Okay, I will go first.
    In terms of our experience, we are fortunate that we have 
very highly qualified engineering companies, private companies, 
that actually designed and built our facilities for us. The 
companies are multinational, so they, of course, can go to 
Singapore, or there is another plant similar to Singapore's in 
Kuwait that General Electric actually built there and operates 
it currently.
    So in terms of exporting the technology, it is really the 
American corporations that are leading the way and that have 
the engineering skill and know-how in terms of the design and 
the construction.
    In terms of at our facility, one thing that we have lended 
our expertise to is we do a lot of pilot testing of new 
technologies. There is a new technology called graphene that is 
in research and development right now that may revolutionize 
reverse osmosis membranes and bring the cost of reverse osmosis 
treatment down substantially. And so that is something we are 
working with Lockheed currently in bench testing basically, 
their innovation and trying to bring the cost of treating this 
water down, which, of course, will help to export this 
technology around the world, and for other applications around 
the world.
    Mr. Smith. Thank you.
    Mr. Oldfield.
    Mr. Oldfield. Great. Thank you for that question, Mr. 
Chairman, about sanitation and the MDGs.
    There is no easy answer to why the world missed by such a 
significant amount the Millennium Development Goal for 
sanitation. I will try in about 10 seconds here. Lack of 
political will, not just in this country, certainly not just in 
this country, but more importantly in developing countries, in 
Africa, Asia, and Latin America, simply a lack of political 
prioritization, and a lack of financial resources primarily 
from developing countries for sanitation.
    And then in some places where these things did come 
together, I would use India as an example that made a 
significant commitment to sanitation throughout 2000 to 2015, 
there was an imbalance between hardware and software. They 
built a whole lot of toilets and didn't do the behavior change. 
They built a lot of hardware and didn't have a lot of software 
to back that up. So all of a sudden not just in India, but in 
many other parts of the world you have toilets used for 
unintended purposes.
    If I might take 10 seconds to address the flip side of 
that, which is how we are going to address the Sustainable 
Development Goals commitment to universal coverage of 
sanitation by 2030. It is exactly the opposite. Increased 
political commitment and prioritization for sanitation, 
appropriate sanitation solutions, so that all 7-plus billion of 
us have a place to go to the bathroom on the planet. Political 
leaders--and I don't mean sanitation ministers or water 
ministers, I mean prime ministers, finance ministers, heads of 
state, and heads of government--need to prioritize this, and 
that is something that we are trying to work on an a bit. And 
therefore, increased financial support for sanitation primarily 
from developing countries themselves.
    There are a lot of efforts within USAID and up on Capitol 
Hill to figure out how to best address this concept of domestic 
resource mobilization, DRM. How can we help mobilize more 
public and private resources for development challenges, 
including sanitation, not from this country, not from the 
international donor community, but from developing countries 
themselves?
    So more political will, more particularly public sector 
finance. I think we need to redress this imbalance around the 
world between hardware and software. We need to focus on 
changing behavior, on changing minds, then the hardware 
problems will solve themselves, I think. If everybody wants a 
toilet, the public or the private sector is going to come up 
with a way to make sure that every single one of those people 
has a toilet.
    And then lastly, echoing your concerns, I haven't seen 
anything about this GAO audit yet, but from what you have 
shared with us very briefly, I think I would agree with their 
concerns. What I would like to see, not just in the sanitation 
space but in the entire WASH space, is Modernizing Foreign 
Assistance Network principles of foreign assistance reform, 
increased accountability, increased capacity, decentralized 
ownership, and increased transparency throughout our foreign 
assistance.
    Mr. Smith. On that point, do you believe the political will 
is emerging, is there, perhaps, to have universal access to 
adequate sanitation by 2030, facilitated in the post-2015 
goals?
    Mr. Oldfield. I do, whether you mean in the developed world 
or in the developing world. I mean, this hearing is a 
manifestation of increased political will for sanitation in 
developing countries from the United States as one member of 
the international donor community. The Dutch Government is 
doing a fantastic job with this, the British Government, the 
German Government. We have a lot of allies in our renewed focus 
on sanitation.
    But, again, more importantly than that, we are seeing a lot 
of increased efforts to prioritize sanitation in developing 
countries. And the one example I would give you is Prime 
Minister Narenda Modi's commitment to Swachh Bharat Abhiyan, 
the Clean India campaign.
    A year ago, he committed to universal coverage of 
sanitation in India by October 2, 2019, Mahatma Gandhi's 150th 
birthday. He is committed to ending open defecation and 
providing a toilet and making sure it is used for its intended 
purpose to all of India's 1.25 billion citizens within a very, 
very short period of time, one example of heightened political 
will.
    Mr. Smith. Thank you.
    Doctor.
    Mr. Whittington. So I will go back to your questions about 
the Nile, and I think there were two: What would an agreement 
look like and what is the State Department doing? They are both 
great questions.
    What would an agreement look like? If you go to the Murray-
Darling in Australia or you go to the Colorado where you have 
large over-year storage facilities on big rivers in water-
scarce areas, those agreements are hundreds of pages long. And 
so the first thing is this is not an easy task. I mean, 
somebody has to actually write these agreements and negotiate 
these agreements and that takes time and it needs to start very 
quickly.
    Technically, what has to happen in the agreement is that 
Ethiopia is going to be filling the GERD Reservoir, but they 
have got to pass enough water down to Sudan and Egypt during 
that time so that those countries can meet their essential 
needs. Egypt has the Aswan High Dam, so they can buffer this a 
little bit if they have storage in the High Dam. Sudan does 
not. There is no over-year storage in Sudan. So there has to be 
enough water passed to meet the essential needs of Egypt and 
Sudan during the filling.
    But more importantly, in the long run, there needs to be 
coordinated management on the droughts, because that is where 
the real conflict could come, if Ethiopia wants to hold back 
water on the droughts, and that water is really needed 
downstream in Sudan and Egypt.
    So this is not hard to do technically, but it has to be 
negotiated. And so the key point on the agreement that we are 
missing right now, we don't have an agreement, but we also need 
a trustworthy, binding arbitrator, and that is where I think 
the global community can come in.
    I would say that the State Department is active. They are 
in Salzburg. The special advisor on water has been working 
hard. But I think the visibility of this issue really needs to 
rise. There has not been a coordinated international response 
on this. It is not just a U.S. concern. It is a concern for 
Europe and the World Bank. The World Bank has moved back from 
the Nile, they are not as engaged as they were in the past, and 
I think this has to change.
    Mr. Smith. Thank you. Thank you.
    Mr. Rohrabacher. Just one thought before we go to Mr. 
Blumenauer. Cairo, Egypt, do we know how many times it reuses 
its water? I don't. In many of these countries that we are 
talking about, they don't reuse it at all. They just use it 
once and it goes into the ocean. In Orange County, California, 
how many times do we reuse our water and clean it and reuse it 
and clean it and reuse it before it goes back into the ocean?
    Mr. Bilodeau. Well, now it is infinite. It is dozens of 
times we continually reprocess the water that comes to us.
    Mr. Rohrabacher. So at least 9, 10 times we are reusing 
that water. We are purifying it again and then reusing it. And 
in countries like Egypt on the edge of a desert, this could 
mean everything, and especially if you end up with a war or 
something between someone upstream and downstream as compared 
to just making sure the water you are using, you reuse it over 
and over again.
    Mr. Blumenauer.
    Mr. Blumenauer. Thank you. And, again, I appreciate the 
courtesy in permitting me to join the panel.
    Dr. Whittington, you mentioned coping costs and cited a 
study in Nepal, Kathmandu, where they have doubled to being $14 
per----
    Mr. Whittington. Per household per month.
    Mr. Blumenauer. Per household per month, in a nation with a 
per capita income per household----
    Mr. Whittington. Yes, you have got me there, I think----
    Mr. Blumenauer. Six hundred dollars, $800?
    Mr. Whittington. Yeah, it is around $1,000, I think. I 
would have to check, you know. It is a good question. I mean, 
these may not seem like big numbers to you, but for poor people 
in developing countries these are high costs. And when 
households save this money, and as John said, save the time, 
these can be put to more productive uses and start a country on 
a path to, you know, economic growth.
    But it is really hard to do that if you are spending all of 
your time, you know, scrambling around a big city trying to 
figure out how to get water for your family.
    Mr. Blumenauer. But it struck me, that seems like a very 
high number to me, thinking about what happens in these 
developing countries. And it raises the point, I think we are 
looking at, the number I have heard quoted, 155 million hours a 
day is spent by women and girls, often, as Mr. Oldfield points 
out, putting themselves at risk, to secure water for the 
families, often dirty water. They end up in many developing 
countries paying a huge amount of their disposable income, to 
say nothing of money that is not being spent.
    I am wondering if you, Doctor, or actually any of the 
members of the panel would care to comment on our capacity to 
actually self-fund much of what needs to be done if we are able 
to get an early intervention, maybe help a little bit of 
capital expenditure, help a little bit with the planning and 
development, and as our chairman says, where there are some 
pretty fundamental areas of savings that aren't being employed. 
You want to talk about the potential of self-funding this?
    Mr. Whittington. It is a great question, and actually 
Water.org is doing just this right now with microfinancing 
water projects in developing countries. So they are putting 
money into communities that are borrowing and then repaying 
those loans to get sustainable high-quality water and 
sanitation services. So I think your point is exactly right. 
Where coping costs are high, and those savings are real, you 
know, in dollars and time, there are great opportunities for 
self-financing water and sanitation projects.
    Mr. Oldfield. Yeah. If I might add 30 seconds to that, I 
would ask you to consider taking a look at USAID's recent 
``Safeguarding the World's Water'' report. I was looking at it 
in preparing for this hearing, looking for success stories of 
how water contributes to economic prosperity.
    I would highlight that the partnerships office of the 
Development Innovation Ventures team at USAID has recently 
provided financial support to a group called Sanergy. It is the 
sort of front-end catalytic financial support that you are 
talking about, Mr. Blumenauer. And Sanergy then takes these 
funds, franchises toilets to entrepreneurs outside of Kenya who 
collect the waste, turn it into organic natural fertilizer, and 
make a profit--I think it is per toilet--of up to 2,000 U.S. a 
year, and several of these entrepreneurs have much more than 
one toilet. So it is a real business opportunity.
    I would highlight USAID's SUWASA, the Sustainable Water and 
Sanitation in Africa Program, as well, which is not just 
focused on one technology or one business or financial model, 
but doing what it can to promote various commercial solutions 
and financial stability.
    It is the sort of, I won't get into too much detail on this 
right now, but it is the sort of, I think, catalytic front-end 
financial and technical assistance that the U.S. taxpayer, 
through its trustees, through their trustees, and through 
USAID, should be providing. We should be first in, not last 
out. We should be the catalyst, not the one running around with 
the used drilling rig drilling wells. That is my take. I think 
we get a much bigger bang for the taxpayer dollar with programs 
like that.
    Mr. Bilodeau. Yes. And briefly, I agree with Mr. Oldfield 
in that. USAID has led the way in terms of international 
financing. In our case, our entire program has cost $600 
million to build. Much of that was financed by ourselves and 
some help from the State of California, and also we have 
received $20 million from the Title XVI Program.
    But we provide water for 850,000 people now with our 
system, and so you can understand the economies of scale there 
and the metrics.
    Mr. Blumenauer. Thank you. It is part of what we have 
attempted to do in the more recent reform legislation, is to 
focus on investments that the United States is involved with 
that are more sustainable, not using inappropriate technology 
or getting people started and then they don't have the 
wherewithal to continue with it.
    Mr. Chairman, I would hope that as a result of some of this 
conversation there would be an opportunity to do a little 
deeper analysis of what we can do on the ground to help provide 
the foundation, because done right, it seems to me clear the 
evidence is that we can have programs that are actually 
affordable if they get over that initial hurdle in terms of 
understanding the technology, maybe having a little upfront 
financing, maybe not even grants, but financing, that there is 
enough money involved with some of these really in some cases 
tragic conditions that we could make a big difference.
    Mr. Rohrabacher. We do plan a second and probably third 
hearing on this issue in which we will be covering exactly the 
type of areas you are suggesting.
    Mr. Blumenauer. Great. Thank you very much.
    Mr. Rohrabacher. And now we have Mr. Dan Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. I am the newest 
member of this committee. I have been in Congress for 4 months. 
I don't want you to get confused. This is my first time sitting 
on the upper tier. I am usually down there by where it says 
``staff only.'' So this is my first exposure----
    Mr. Rohrabacher. Don't get used to it.
    Mr. Donovan. Thank you, Chairman.
    This is my first exposure to your expertise to the probing 
questions of my colleagues. My understanding of the issue is 
just what I have read over the years. So my limited 
understanding and it is more general is that the problem is 
caused by droughts, it is caused by having adequate water but 
it is not safe water, there is safe water that is adequate for 
people but there is not infrastructure to get it to people. It 
is regimes or governments who have adequate water and 
infrastructure but won't allow their people access to it.
    Are these the problems that you are facing, that these 
countries that you are talking about are facing, and is our 
country doing its share or enough to help? To anyone.
    Mr. Oldfield. Well, thank you, Mr. Donovan. I think the 
easy answer to your question is yes. It is all of the above. 
Name a challenge associated with safe drinking water, 
sanitation, or hygiene, and people are facing it. Sometimes it 
is a lack of water.
    But I guess I would quote an academic named Hans Rosling 
who said: The biggest environmental challenge on the planet 
today is that 1 billion people are drinking their neighbor's 
lukewarm feces. These people are not dying of thirst, they are 
dying of shit in the water. They are drinking each other's 
feces. And that is what is killing 500,000 children minimum 
each year.
    The key, the flip side of your question is that this is 
solvable. The folks at this table, the folks up on the dais 
there understand how to solve this problem. I believe that the 
U.S. Government is doing a lot. I think you heard a figure of 
$3.5 billion for water and sanitation programs over the last 
10, 12 years. That is a lot.
    I personally am up here to advocate that we can do not just 
more, but that we can do better by addressing some of the 
concerns that Chairman Smith brought up earlier about how to 
build local capacity, how to decentralize ownership, how to 
make sure that we are actually working ourselves out of a job, 
not creating further dependencies in Africa, in Asia, and Latin 
America. And I would be happy in your first year here to spend 
some more time with you or your staff on this to bring you up 
to speed. And I would also direct you to Mr. Blumenauer's 
office and to Mr. Poe's office, who were the key sponsors of 
the Water for the World Act last year.
    Mr. Donovan. Thank you.
    Mr. Bilodeau. Yes. And briefly, as he mentioned, the key is 
that many of these areas are lacking the proper sanitation 
facilities. The sanitation facility is essentially the river. 
And if we could help developing countries develop proper 
sanitation facilities in concert with water reuse facilities, 
it solves two problems simultaneously.
    Mr. Whittington. I will just tell you about a puzzle that 
we have in the sector. We have a lot of nonpipe technologies 
that work and are cheap, they are effective, and they save 
lives. But household demand for these services is often low. 
And on the other hand, household demand for pipe services, 24/7 
water supply, bottled water, like you have got, is very high. 
But the problem is these are very expensive and they are very 
capital intensive.
    So those are the two kind of things that we wrestle with in 
this sector. And it gets back to this issue of financing. How 
do we finance improved pipe systems for urban areas to promote 
growth and dynamic economies? I mean, that to me is one of the 
real challenges we face. We know how to save lives, and we 
should do it, with cheap, cost-effective technologies. But 
people want more than that, and they want economic growth, and 
they want the convenience of piped water in their homes. And so 
that is the challenge that we struggle with in this sector--one 
of the challenges we struggle with.
    The other thing I would say about struggling, water 
problems are local and solving them requires local capacity, 
local institutions, and local expertise. So one of the 
challenges we have got is building local capacity, building 
local institutions, because the solutions are not the same 
everywhere. So it is an educational task that we have got, an 
institutional building task, and we all know those are really 
hard.
    Mr. Donovan. I thank you all for your enlightenment.
    I yield the rest of my time, Chairman.
    Mr. Rohrabacher. And last but not least, Mr. Clawson.
    Mr. Clawson. Thank you for coming today. I have got two 
questions or comments that I would like you all to respond to, 
so I will throw them out one at a time.
    So my district is--the southern tip is Marco Island. I have 
got the west tip of the Everglades, go up north along the 
coast, Naples, Bonita Springs, Fort Myers, Cabbage Key, great 
place. I think I have got the best district of all--wonderful, 
welcoming people, and I love it there. That is another 
conversation.
    I am always concerned about diseases from mosquitos that 
come from water because we don't do well with drainage and 
pooling. And I am worried about that personally because I see 
chikungunya right around the corner. I see dengue fever right 
around the corner. It is all over the Caribbean, as far south 
as Brazil. And it just feels like it is knocking on our door 
and it is just a question of time.
    And I am always worried about how we do with--you know, 
when I drive around my district, I am looking at a lot of 
pooling water and I compare that to the developing world where 
they don't do anything, particularly if it is a bad rainy 
season. And then you have 10 percent of the population of the 
world gets dengue fever; chikungunya is blowing up everywhere. 
We have this conversation today and until now I don't think 
anybody has even brought it up.
    And I think of Southeast Asia and the rainy seasons there, 
and India. And, look, I am all with you on toilets and wells, 
but it feels like the global conversation about water 
sanitation and usability is behind the curve with respect to 
mosquitos because we beat malaria, which is a nocturnal, rural 
problem, and now we have chikungunya and dengue fever which is 
an urban, daytime problem.
    So that is number one. Do we, as a country and as a globe, 
do we do any work on that?
    The second thing is to Mr. Oldfield's comments, my 
experience in development in South America and Southeast Asia 
is that if folks are at risk a little bit, skin in the game--on 
the well or on the toilet, the septic system--however basic it 
is, that they tend to keep it up more. And that a lot of the 
500,000 that are dying every year--I am a lot more open-minded 
to spending taxpayer money if the end user has skin in the 
game.
    And that is not a conservative's way of saying I don't want 
to help, because we have all spent a big chunk of our life 
trying to help. But if the model makes everyone in the supply 
chain have skin in the game, then I think what I have seen is 
that we have better usage of the money.
    So I would just ask you all's quick response to my two 
comments. First of all, if you think I am all wet on the 
mosquito thing, just tell me right up. And then, Mr. Oldfield, 
you can comment on the other one.
    Mr. Rohrabacher. I don't think all wet was what you really, 
wet.
    Mr. Whittington. I don't think you are all wet on dengue. I 
think it is a serious concern. I would say that there has been 
rapid progress on a dengue vaccine and I would get ready to use 
it. You need to be ready to deploy that in your district when 
it is----
    Mr. Clawson. I am really glad you--look, Dr. Whittington, 
if you ever have time for a conference call with my team we 
would love to hear it. I read a year or 2 ago that they are 
working on a vaccine in Singapore or in Asia somewhere. I 
assume it is from outside the U.S. Is that right?
    Mr. Whittington. It is outside the U.S. The International 
Vaccine Institute in Seoul has made great progress on this and 
some of the pharmaceuticals. And so I would be happy to talk to 
you about----
    Mr. Clawson. And does it work on all four strains of dengue 
fever or----
    Mr. Whittington. You have got me on that. But they are very 
happy about the preliminary results from the trials on this. So 
that is something that I would get ready to use.
    Mr. Clawson. We are very interested because we see 
ourselves right behind the Keys in terms of----
    Mr. Whittington. I just mentioned I got back from 
Singapore, and they are monitoring very closely dengue cases 
when they pop up, they send people in to figure out where it 
came from, and they are really trying hard to stay on top of 
mosquito control. But I think your concern is exactly right. I 
mean, this is a real risk.
    Mr. Clawson. Yeah. My guys tell me the type of mosquito 
that spreads dengue is there, but the infection is not yet in 
south Florida. So it just feels like a question of time before 
we, and I am going to be dealing with this, and if we can see 
it coming----
    Mr. Whittington. I think you are right.
    So your second point was about wells and skin in the game, 
and I also agree completely with you on that point, and it 
relates back on the other question about financing and 
microfinancing, getting people to pay for these services as 
well.
    I would say that from our perspective competition in this 
business is useful. And one of the great advances, one of the 
best things that has happened in Sub-Saharan Africa in the last 
couple decades in the WASH sector has actually been the 
presence of Chinese contractors competing for contracts in the 
rural water sector, and they really halve the price of wells.
    So the price of drilling wells, in old technology, you 
know, we have been having wells around for 5,000 years, but the 
Chinese contractors have come and competed in a market-based 
system for those contracts to drill wells in rural areas and 
have won contracts and cut the price in half. So there is a 
market in this business that----
    Mr. Clawson. My experience in this is that when we do the 
financial calculation, the return, either a net present value 
or IRR, we leave out the cost avoidance of hepatitis C or the 
other things that bad toilets cause, and therefore developing 
countries understate the return on investment for proper 
sanitation. Am I right about that? Mr. Oldfield maybe?
    Mr. Oldfield. Well, I think that is right, and I would just 
add time savings to that. Once you factor in the 3, 4, 6 hours 
a day that a lot of these women around Africa, Asia, and Latin 
America spend hauling water contaminated with human feces on 
their heads, pretty much every WASH project is financially 
viable. And I know that doesn't satisfy you from an NPV or an 
IRR perspective, but it needs to be factored in there.
    Mr. Clawson. No, I think if you take cost avoidance in--no, 
I disagree. I mean, I think if you take cost avoidance in and 
the cost of ringworm and everything else that goes with bad 
water--I mean, I am conservative, but I am right with you all 
on that. I mean, I think the financial models, if we take all 
aspects into account--first of all, saving people's lives, 
which is always more important--then I am right with you. But I 
think that if we ignore the cost avoidance and if we leave the 
end user out of the risk stream, then we come up with 
corruption and other problems.
    Do you agree with me on that, Mr. Oldfield?
    Mr. Oldfield. Well, I do. I think you are on the right 
track here. And I am constantly looking for more ways to 
justify, my job is to encourage Americans, both public and 
private, to do more and better in tackling the world's WASH 
challenge, water, sanitation, and hygiene. One of our key 
messages is that every dollar invested in WASH provides a $4 
return, according to the World Health Organization, and that $4 
in return, it is not a financial return, it is barely an 
economic return. What it is, it is a social return.
    Most of that comes from increased--well, I guess it is 
economic ROI--increased economic productivity because of extra 
hours in your day. But a significant percentage of that 4-1 ROI 
does come from decreased healthcare costs as well.
    It is not an emerging field, but there is new research 
coming out on this all the time because it is, exactly as you 
said, it is awfully difficult to quantify precisely.
    Mr. Rohrabacher. I would like to thank our witnesses today. 
This is, again, a second in a series of hearings that we will 
have on water. And some of the areas that have been outlined by 
Mr. Blumenauer we are going to be looking at. And we want to--I 
think that we have really opened up an area of discussion on 
policy that could be of great value and accomplish some things 
in a very cost-effective way.
    So I want to thank you for helping start this dialogue on 
water, and we will continue in the next hearing, but this one 
is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

                                 <all>
</pre></body></html>
